<html>
<title> - ADVANCING HUMAN RIGHTS TO COMBAT EXTREMISM</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


               ADVANCING HUMAN RIGHTS TO COMBAT EXTREMISM

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 6, 2017

                               __________

                           Serial No. 115-92

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______
                                 
  
                    U.S. GOVERNMENT PUBLISHING OFFICE                    
27-755PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f99e8996b99a8c8a8d919c9589d79a9694d7">[email&#160;protected]</a>                                
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                LOIS FRANKEL, Florida
SCOTT PERRY, Pennsylvania            TULSI GABBARD, Hawaii
RON DeSANTIS, Florida                JOAQUIN CASTRO, Texas
MARK MEADOWS, North Carolina         ROBIN L. KELLY, Illinois
TED S. YOHO, Florida                 BRENDAN F. BOYLE, Pennsylvania
ADAM KINZINGER, Illinois             DINA TITUS, Nevada
LEE M. ZELDIN, New York              NORMA J. TORRES, California
DANIEL M. DONOVAN, Jr., New York     BRADLEY SCOTT SCHNEIDER, Illinois
F. JAMES SENSENBRENNER, Jr.,         THOMAS R. SUOZZI, New York
    Wisconsin                        ADRIANO ESPAILLAT, New York
ANN WAGNER, Missouri                 TED LIEU, California
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia
JOHN R. CURTIS, Utah<greek-l>As of 
    12:44 pm 11/29/17 deg.

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
MARK MEADOWS, North Carolina         KAREN BASS, California
DANIEL M. DONOVAN, Jr., New York     AMI BERA, California
F. JAMES SENSENBRENNER, Jr.,         JOAQUIN CASTRO, Texas
    Wisconsin                        THOMAS R. SUOZZI, New York
THOMAS A. GARRETT, Jr., Virginia
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Thomas Farr, Ph.D., president, Religious Freedom Institute, 
  director, Religious Freedom Research Project, Georgetown 
  University.....................................................     7
John Lenczowski, Ph.D., founder and president, The Institute of 
  World Politics.................................................    14
Sayyid Syeed, Ph.D., senior advisor, Office of Interfaith and 
  Community Alliances, Islamic Society of North America..........    36
Mr. Neil Hicks, director, Human Rights Promotion, Human Rights 
  First..........................................................    43

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Thomas Farr, Ph.D.: Prepared statement...........................     9
John Lenczowski, Ph.D.: Prepared statement.......................    16
Sayyid Syeed, Ph.D.: Prepared statement..........................    39
Mr. Neil Hicks: Prepared statement...............................    46

                                APPENDIX

Hearing notice...................................................    88
Hearing minutes..................................................    89
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey, and chairman, Subcommittee on 
  Africa, Global Health, Global Human Rights, and International 
  Organizations: Material submitted for the record...............    90
The Honorable Thomas A. Garrett, Jr., a Representative in 
  Congress from the Commonwealth of Virginia: Material submitted 
  for the record.................................................    94

 
               ADVANCING HUMAN RIGHTS TO COMBAT EXTREMISM

                              ----------                              


                      WEDNESDAY, DECEMBER 6, 2017

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 10:03 a.m., in 
room 2172, Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The committee will come to order. And good 
afternoon to everybody, or good morning, I should say.
    Today's hearing will explore ways to combat violent 
extremism by advancing fundamental human rights--in particular, 
the freedom of religion. Advancing freedom of religion both as 
an end in and of itself and as a means to achieve peace, 
stability, and human flourishing should be a core objective of 
U.S. foreign policy.
    Religious liberty is opposed, however, by extremists who 
seek to impose their vision of an ideal society upon us all. 
Oftentimes a ``choice'' they give to those who seek to adhere 
to the beliefs they were raised in boils down to: Convert or 
die. This clash manifests itself in numerous parts of the world 
in varying degrees of intensity but is particularly acute in 
certain Muslim-dominated regions where groups such as ISIS, al-
Nusra, Boko Haram, and Al Shabaab seek to bring all under their 
sway.
    To personalize this, let me tell you about a victim of Boko 
Haram that I have gotten to know and greatly admire. On one 
trip to Nigeria, in an IDP camp in Jos, I met with Habila 
Adamu. Dragged from his home by Boko Haram terrorists, he was 
ordered to renounce his faith. Four Boko Haram terrorists threw 
him to the ground, and one literally put an AK-47 to his face 
and said, ``Are you ready to die as a Christian?'' With amazing 
courage, Habila answered, ``Yes, I am ready to die as a 
Christian.''
    He was asked a second time if he was ready to die, and he 
said yes. This time, despite the pleas of his wife, who was 
crying profusely, the terrorist pulled the trigger. A bullet 
ripped through Habila's face. He crumpled to the ground and was 
left for dead. By some miracle, he survived.
    I asked Habila to come to DC to tell his story at a 
congressional hearing that I chaired. Habila told our 
committee, ``I am alive because God wants you to have this 
message. Knowing Christ is so much deeper than merely knowing 
Boko Haram's story of hate and intolerance.'' He closed his 
testimony, ``Do everything you can to end this ruthless 
religious persecution, but know Christ first.''
    I would point out that on that trip I also met with the 
Archbishop Kaigama, whose churches have been firebombed in Jos, 
but also with the Imam and his top clerics. They were equally 
appalled, both the Christians and the Muslim moderate 
leadership, appalled at what Boko Haram was doing. I remember 
the Imam saying, ``We don't know who they are. They are not 
us.'' It couldn't have been clearer that he saw that this was a 
cruel manifestation of extremism under the name falsely of 
Islam.
    It should be stressed that extremist groups such as Boko 
Haram coerce and oppress not only members of other faiths but 
also, in particular, members of the Muslim faith--and, again, 
that is what I have heard all over the world, and you have 
heard it, I am sure, too--whose interpretation of Islam differs 
from that of the extremists. They also target converts whose 
consciences have led them to choose a different path.
    To combat these extremists, the ideological battlefield is 
just as important as a territorial one. By emphasizing human 
rights principles, we counter extremist messaging, support 
moderate voices, and promote the popular aspirations of people 
around the world who simply want to live in peace and freedom.
    Last year, an important weapon in the fight against 
extremism was passed by the Congress and signed into law, the 
Frank Wolf International Religious Freedom Act. This law 
provides tools and resources to our State Department to 
integrate religious freedom into all of our diplomacy in order 
to counter, in part, terrorism but also to promote religious 
freedom.
    In building upon this landmark International Religious 
Freedom Act that was passed in 1998, authored by Frank Wolf, 
this law addresses the changed circumstances in the world since 
1998 by designating nonstate extremist groups, such as Boko 
Haram and ISIS, as violent nonstate actors, making it easier to 
ostracize and apply financial sanctions against their members, 
thereby helping starve extremists of resources.
    The law strengthens the ability to investigate and monitor 
religious persecution by creating a designated persons list of 
violators while also setting up a database of those detained, 
imprisoned, and tortured for their faith so that the victims 
are not forgotten but, rather, can be more readily advocated 
for.
    Indeed, the Frank Wolf Act elevates the Ambassador-at-Large 
for International Religious Freedom, and we are all waiting 
with bated breath for when Governor Brownback assumes that 
chair. Governor Brownback has been designated; it is pending in 
the Senate. Our hope is that the Senate will move quickly to 
put him into that important strategic position to begin doing 
what will be an extraordinarily good job.
    Finally, the act requires our foreign service officers to 
undergo training in religious liberty so that they are able to 
integrate this important tool into their daily work. And that 
would also include our Ambassadors and our top leadership in 
our Embassies.
    Before we move on to my colleague's remarks, I would like 
to thank especially Congressman Francis Rooney, the former 
United States Ambassador to the Holy See, for suggesting that 
we have this hearing and for helping to make this a reality. He 
has written a tremendous book, and I recommend it to all of you 
that you read it. I don't know if we can endorse books from the 
chair, but----
    Ms. Bass. Go right ahead.
    Mr. Smith. But I want to thank him for this strategic 
vision that he has and, again, for making this hearing a 
reality.
    I would like to yield to my good friend and colleague, 
Karen Bass, the ranking member of our committee.
    Ms. Bass. Mr. Chair, once again, thank you for holding this 
hearing.
    And I appreciated everything you said about the legislation 
that was passed. And I am glad to know that there is somebody 
that is designated, and we hope the Senate moves. But all of us 
are concerned these days that the legislation be fully 
implemented. And so you mentioned foreign service officers and 
all of that. And I am deeply concerned at the departures that I 
hear of so many people leaving the State Department. And so I 
think we have to keep that in mind as well. We want the person 
designated, but we also want to be able to have foreign service 
officers so that they could actually implement this on the 
ground.
    So I want to thank the witnesses for being here today and 
especially Mr. Hicks, who I know traveled from New York to 
testify before us.
    And Mr. Smith has already highlighted the importance of 
religious freedom when countering violent extremism. And we all 
know that the title of this hearing is ``Advancing Human Rights 
to Combat Extremism.'' And so, with this in mind, I want to 
focus my comments on talking about the root causes and push for 
factors for why people might turn to or engage in violent 
extremism in the first place.
    So we know, of course, that some are driven by ideology. 
But, overwhelmingly, as we look around the world, people 
without opportunities in formal, legal economies, we know, will 
resort to informal, illegal economies. We know that is even 
true here in the United States, but I have been not really 
surprised, but to hear some young people, especially young 
people on the continent of Africa, who say that, in order to 
eat, they realized that they needed to have a gun. So, in other 
words, participating in extremism was also a way of providing 
for themselves and their family. I find that particularly 
tragic. And I also find that, as we go about looking to address 
violent extremism, we have to think about what drives people to 
become extremists in the first place.
    So the Institute for Security Studies, which is a think 
tank based in South Africa, conducted a study in 2014 where 
they interviewed 88 people who joined Al Shabaab, the terrorist 
group operating in Somalia and other parts of East Africa. When 
asked to indicate what finally pushed them to join Al Shabaab, 
40 percent of the interviewees referred to economic reasons 
specifically or in combination with other circumstances.
    The study also noted that education can counter 
radicalization because better-educated people tend to 
participate in more formal economic and political sectors. Lack 
of education, of course, also adversely affects employment 
opportunities.
    So poverty and unemployment have to be considered when we 
think about combating extremism. Push factors or enabling 
circumstances also include poor governance, lack of civil 
liberties, political exclusion, perceived mistreatment or 
discrimination that can include mass arrests, police or 
military crackdowns, ethnic profiling, or extrajudicial 
killings.
    The bottom line is, if people feel they are discriminated 
against and there aren't dispute-resolution mechanisms 
available, they may resort to violence because they have no 
hope. Respectful religious freedom is an important component of 
countering violent extremism, but when governments suppress 
peaceful dissent, do not allow freedom of press, and prevent 
the legitimate activities of nonviolent civil society 
organizations, they are not countering extremism; they are 
fomenting it.
    What I am trying to do here is highlight that the denial of 
rights and freedoms, whether economic, social, or political, 
contribute to the problem of violent extremism. Therefore, a 
holistic and comprehensive strategy for combating violent 
extremism should promote the rule of law; human rights, 
including freedom of association, expression, and assembly; 
ending repression of civil society and opposition groups, among 
others; and, of course, creating economic opportunity.
    So I want to conclude where I began by looking at some of 
the changes that we see taking place within the State 
Department. And I know tomorrow we are going to have a full 
committee hearing on combating violent extremism on the 
continent of Africa. So what I am concerned as we move forward 
with the new administration, we know that there is a focus on 
security, but I think part of our role here in this 
subcommittee, as well as in the full committee, is that we have 
to push on the other factors. Because we know that trying to 
address this strictly from a security perspective or militarily 
is not going to be enough. So the full function and staffing 
and programs of the State Department are also going to be very 
important.
    And, with that, I yield back the balance of my time.
    Mr. Smith. I would like to now yield to Ambassador Rooney.
    And, again, thank you for suggesting this hearing.
    Mr. Rooney. Well, Chairman Smith, thank you so very much 
for holding this hearing and for all you have done. Your life 
is a testimony and a witness to Christian values, religious 
values, religious freedom, and protecting human dignity. And 
you are a great example for all of us.
    I thought I might mention a couple of things about soft-
power diplomacy since we have some real-world experts down 
there, and they have touched on it.
    I would like to thank all of you for being here.
    The Holy See is a penultimate soft-power diplomatic force 
in the world. It goes back to Stalin's quote about how many 
tanks does the Pope have. Well, it is actually a Pope that 
brought them down. And the Christian Democrat formation in 1953 
was largely organized by the Holy See to keep the Communists 
out of Italy--no one knows about that--or Norman Cousins' 
incipient detente shuttle diplomacy with John Kennedy and 
Khrushchev in the fall of 1962, which people as luminary as 
Henry Kissinger have said was the very beginning of detente.
    So now the penultimate soft-power application was Pope 
Benedict's speech at Regensburg, where he spoke out more 
clearly and aggressively than any other politician could about 
the evils of Islamist extremism and the destruction of religion 
when it is used for war. And he called out for a 
reinterpretation, if you will, of Islam to come into consensus 
with the modern world. And he made it clear that Muslim voices 
are really the most important ones in this debate, because we 
need them to help to bring their religion into the modern world 
and end the stimulus of radicalization.
    And since that time, Ambassador Charles Freeman, former 
Ambassador of Saudi Arabia, the Jordan Minister of Religion, 
and even the Grand Mufti of Saudi Arabia have said you can't 
fight an idea. Just like what the Congresswoman said, we have 
to fight with soft power and ideological war.
    We have seen the impact of the radical Wahhabi madrassas in 
sub-Saharan Africa. Pope Benedict spoke with President Bush and 
Mrs. Bush and I about that back in 2005. And now we see some 
incipient indications of problems in Malaysia and Indonesia. So 
I think we have a very timely topic here, a very important one. 
And I would like to thank Congressman Smith again for bringing 
light to it and thank Dr. Lenczowski and Tom and Sayyid for 
participating.
    Thank you very much.
    Mr. Smith. Thank you, Mr. Ambassador.
    My good friend from New York, Mr. Suozzi.
    Mr. Suozzi. Thank you, Mr. Chairman. I just want to thank 
you again for your good work and the ranking member's work on 
this committee and what you bring to light to the people of 
this country.
    And I want to thank our witnesses for being here today. And 
I am just interested in listening to what they have to say, and 
I will maybe some ask some questions later.
    Thank you.
    Mr. Smith. The distinguished gentleman from New York, Mr. 
Donovan.
    Mr. Donovan. Thank you, Mr. Chairman. And I will yield my 
time so that we have more time for the witnesses to speak. 
Thank you, sir.
    Mr. Smith. Chairman Rohrabacher?
    Mr. Rohrabacher. I, too, will yield my time.
    Mr. Smith. Okay.
    And, Mr. Garrett, the gentleman from Virginia.
    Mr. Garrett. Mr. Chairman, I will yield my time and reserve 
for down the road. Thank you.
    Mr. Smith. Thank you.
    I want to welcome our distinguished panel.
    Beginning first, Dr. Thomas Farr, president of the 
Religious Freedom Institute, a nonprofit organization committed 
to achieving religious liberty for everyone. He also directs 
the Religious Freedom Project at Georgetown University's 
Berkley Center. He is associate professor of the practice of 
religion and world affairs at Georgetown's Edmund A. Walsh 
School of Foreign Service and also teaches at the National 
Defense University.
    Dr. Farr served for 28 years in the United States Army and 
the U.S. Foreign Service. In 1999, Dr. Farr became the first 
Director of the State Department's Office of International 
Religious Freedom, responsible for establishing America's new 
IRFA policy. He held this position until 2003.
    Dr. Farr currently trains American diplomats at the Foreign 
Service Institute and is also a consultant to the U.S. Catholic 
Bishops Conference. This is not the first time Dr. Farr has 
testified before Congress, nor is it the first time he 
testified before this committee. He is truly an expert. And he, 
too, has written a tremendous book that I would recommend to 
everyone, as well, on religious freedom.
    We will then hear from Dr. John Lenczowski, who is founder 
and president of the Institute of World Politics, an 
independent graduate school of national security and 
international affairs in Washington.
    From 1981 to 1983, Dr. Lenczowski served in the State 
Department in the Bureau of European Affairs and as Special 
Adviser to the Under Secretary for Political Affairs, Larry 
Eagleburger. From 1983 to 1987, he was director of European and 
Soviet affairs at the National Security Council. In that 
capacity, he served as principal Soviet affairs adviser to 
President Ronald Reagan.
    He has been associated with several academic and research 
institutions in Washington, including Georgetown University, 
the University of Maryland, the American Enterprise Institute, 
the Ethics and Public Policy Center, the Council for Inter-
American Security, and the International Freedom Foundation.
    Then, we will hear from Dr. Sayyid Syeed, who is the 
national director of the Islamic Society of North America, 
heading up its Office for Interfaith and Community Alliances in 
Washington, DC. He served for 12 years, 1994 to 2006, as 
secretary general of the Indiana-based national umbrella 
organization, which has more than 300 affiliates all over the 
U.S. and Canada.
    Dr. Syeed was born in Kashmir and migrated to the United 
States in the mid-1970s. From 1980 to 1983, he served as 
president of the Muslim Students Association of the U.S. and 
Canada and pioneered its transformation into the modern-day 
Islamic Society of North America.
    He has been actively involved in fostering understanding 
among world religions and has participated in interfaith 
dialogues from local to international levels in the United 
States and Canada. A frequent speaker at interfaith dialogues, 
he has served as a member of the board of trustees of the 
Council for a Parliament of the World's Religions. In 2000, he 
was invited to dialogue in the Vatican by the late Pope John 
Paul II and, in 2008, led the American Muslim leadership 
delegation to meet with Pope Benedict in Washington.
    Then we will hear from Neil Hicks from Human Rights First. 
He advises Human Rights First programs on a wide variety of 
international human rights issues and serves as a resource to 
the organization in identifying opportunities to advance human 
rights around the world. Mr. Hicks also writes and conducts 
advocacy on issues relating to human rights around the world. 
He also writes and conducts advocacy on issues relating to 
human rights promotion in the Muslim world and the impact of 
counterterrorism measures on human rights.
    Before joining Human Rights First, he worked as a 
researcher for the Middle East department of Amnesty 
International in London, where he worked between 1985 and 1991. 
He has also served as human rights project officer for Birzeit 
University in the West Bank. He has authored many reports and 
scholarly articles, including, ``The Public Disorder of 
Blasphemy Laws: A Comparative Perspective.'' And we welcome him 
to the subcommittee as well.
    Dr. Farr, please proceed.

 STATEMENT OF THOMAS FARR, PH.D., PRESIDENT, RELIGIOUS FREEDOM 
   INSTITUTE, DIRECTOR, RELIGIOUS FREEDOM RESEARCH PROJECT, 
                     GEORGETOWN UNIVERSITY

    Mr. Farr. Chairman Smith, Ranking Member Bass, Ambassador 
Rooney, and members of the subcommittee, thank you for holding 
this important hearing.
    My message today has three parts: First, U.S. religious 
freedom diplomacy can improve our Nation's ability to combat 
Islamist terrorism. More religious freedom abroad can help 
prevent the spread of terrorism around the world and protect 
Americans here at home. Second, our religious freedom diplomacy 
can protect other fundamental U.S. interests by enhancing 
political, economic, and strategic stability. Third, religious 
freedom diplomacy that employs evidence-based self-interest 
arguments can reduce religious persecution more effectively 
than do our current diplomatic methods.
    Unfortunately, the President's nominee to head U.S. 
religious freedom policy is not yet at work. I urge the Senate 
to confirm Governor Sam Brownback immediately. We need him on 
the job.
    During the past two decades, global religious persecution 
has increased dramatically, and protections for religious 
freedom have been in sharp decline. Millions suffer 
persecution. Tens of millions lack religious freedom. Religion-
related terrorism threatens much of the world, including the 
United States. But our religious freedom diplomacy has not been 
understood or used as a counterterrorism weapon. It should be.
    Twenty years of working on this issue have convinced me 
that a simple proposition is both true and useful, and that is 
that religious freedom is necessary. It is necessary for the 
flourishing of every individual and every society. It is 
necessary to reduce the presence of violent religious 
extremism.
    Social scientists at the Religious Freedom Institute, where 
I work, have amply documented that societies lacking religious 
freedom are far more likely to incubate, suffer domestically, 
and export internationally religion-related terrorism, and 
societies that protect religious freedom generally do not 
incubate and export religion-related violence and terrorism.
    So how does this work? How does religious freedom undermine 
violent religious extremism? First, by protecting anti-
extremist Muslim voices who advocate for a tolerant, nonviolent 
interpretation of Islam. Second, by protecting the rights of 
non-Muslim communities not only to exist as tolerated 
minorities but to contribute to their societies as equal 
citizens.
    Unfortunately, current U.S. counterterrorism policy ignores 
these connections. That policy consists almost exclusively of 
the employment of military force, law enforcement, and 
intelligence. While each is obviously necessary, none is 
sufficient to defeat Islamist terrorism.
    This form of terrorism is not simply a military force; it 
is not simply a cadre of militants whose military defeat, 
capture, or death will end the threat. It is an ideology, a set 
of lethal ideas derived from Islam that have proven their 
capacity to motivate men and women to kill, to torture, and to 
destroy.
    We need an all-of-government religious freedom policy that 
not only protects the persecuted but, at the same time, 
advances U.S. national security by employing programs and 
policies that directly target the self-interest of stakeholders 
in societies where terrorism flourishes.
    Let me end with an example of Iraq. Since 2014, the United 
States Government has allocated nearly $1.7 billion in 
humanitarian aid to Iraq, but most of that aid has not reached 
the Christian and other minorities designated as victims of 
ISIS genocide. These people are unlikely to return to their 
homes without our help.
    For the United States, this presents both a moral and a 
national security imperative. Religious pluralism is a 
necessary condition for long-term stability in Iraq. If 
minorities do not return and stay, Iraq will likely become a 
perpetual Sunni-Shia battleground where terrorism flourishes.
    The current administration has pledged to channel aid to 
these minorities, but financial aid is only the first step. The 
U.S. should mount a sustained campaign to convince Iraqi 
stakeholders that they will never live in peace and security 
without the pluralism that non-Muslim minorities bring.
    With our help, Iraq must provide security, economic 
development, and religious freedom to those minorities. It must 
also provide religious freedom to Muslims who will defend 
tolerant, nonviolent forms of Islam.
    We will prevail against Islamist extremism only when we 
expand our national security strategy to include the 
advancement of religious freedom both to protect the persecuted 
abroad and the American people at home.
    Thank you.
    [The prepared statement of Mr. Farr follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Dr. Farr, thank you so very much for your 
testimony.
    Dr. Lenczowski.

STATEMENT OF JOHN LENCZOWSKI, PH.D., FOUNDER AND PRESIDENT, THE 
                  INSTITUTE OF WORLD POLITICS

    Mr. Lenczowski. Good morning, Mr. Chairman, Ranking 
Minority Member, Ambassador Rooney, and members of the 
subcommittee. I am honored to be able to discuss how to defeat 
the ideology of radical Islamism, with a particular focus on 
human rights.
    The U.S. has spent trillions fighting Islamist terrorism as 
if it is a military problem, as Dr. Farr has just said, with 
little reference to what inspires it in the first place. I have 
a metaphor for this. Our wars are akin to trying to eradicate 
mosquitoes in your backyard by inviting all your friends over 
for a garden party, arming them with shotguns, and shooting 
mosquitoes all afternoon. You will get a few. The problem is 
that the garden has a puddle where the recruitment of new 
mosquitoes is going on and we are doing very little about it.
    This is a problem of politics, propaganda, ideology, 
culture, economic opportunity, and extremist politicized 
religious doctrines. To solve this problem necessitates 
fighting a war of ideas, and the problem is that we have 
virtually no ideological warriors in this war.
    We have a Cold War precedent, where we worked to undermine 
the Marxist-Leninist core of the Soviet system. Among other 
things, this war required anathematizing Communist human rights 
violations and offering the peoples of the Soviet empire a 
positive alternative: Human rights, freedom, democracy, and 
hope for a better life. These efforts centered around giving 
people the courage to demand political change and the respect 
of their human rights.
    Today, we must also use similar means to target the 
ideological core of radical Islamism. This ideology differs 
from politically moderate Islam insofar as it seeks to 
turbocharge the Islamization process by conducting ``jihad of 
the sword'' and ``resettlement jihad''--the migration to non-
Muslim lands, establishing separatist enclaves that run 
according to sharia, and culminating in political-demographic 
conquests.
    This ideology, which incorporates Marxist-Leninist 
strategy, has been key to the recruitment of new jihadists, 
both terrorists and resettlement jihadists. It depends on 
generating hatred against the infidel, principally through a 
moral attack against colonialism, Zionism, U.S. hegemony, and 
the West's moral degradation.
    Defeating it requires an ideological counterattack based on 
superior moral precepts. Such an effort has two components, 
both of which focus on human rights.
    The first involves telling the truth about radical 
Islamism. This means ending self-censorship about jihadism and 
conducting an information campaign exposing jihadist ideology, 
the weaponization of religious doctrines, the denial of human 
rights under sharia, and the crimes and human rights violations 
of Islamist regimes.
    The second component involves offering a positive 
alternative, including the promotion of human rights. First, it 
is necessary to promote the dignity of the human person as the 
creation of God. It is as a result of this dignity that man 
possesses inalienable rights in the first place that come not 
from other men but, as our Founders said, from a creator.
    Perhaps the most effective human rights campaign today in 
this ideological war has been conducted by a private nonprofit 
group called Good of All and its academic centers on three 
continents. They promote the Universal Declaration of Human 
Rights as an ``idea virus'' to prevent the radicalization of 
``digital natives''--the younger generation who have grown up 
with social media. The idea is to present an idealistic vision 
that rejects violence and the human rights violations that have 
attended radical Islamist movements and regimes.
    Central to this effort is the appeal to Muslim women, whose 
rights are systematically violated wherever radical Islamism 
prevails. Many of these women have participated in the 
organization's campaign to produce YouTube videos that have 
exposed the dark side of sharia--the stoning of women, acid 
attacks, honor killings, and wife beating.
    There are also efforts within the Islamic world to fight 
radical jihadism. In Indonesia, there is a long history of 
challenging the radical secular political goals of jihadism by 
offering a vision of Islam that is pluralist and tolerant. For 
example, Indonesia's former President, Abdurrahman Wahid, 
argued that there is no such thing as a genuine secular Islamic 
state. The true Islamic state, he said, is when an entire 
people have achieved holiness.
    A new assemblage of 41 Muslim nations, the Islamic Military 
Counter-Terrorism Coalition, stresses the importance of 
fighting terrorism in the domains of ideology and 
communications, in addition to counterterrorism finance and the 
military, by promoting moderation, tolerance, compassion, 
diversity, and the value of human life. It remains to be seen 
how effective this effort proves to be.
    The U.S. Government is intellectually, culturally, and 
organizationally unprepared to combat both elements of the 
radical jihadist threat and to fight a true war of ideas. There 
is no agency of the U.S. Government charged with ideological 
warfare. What must be done is to create a new U.S. public 
diplomacy agency that will become a force in U.S. foreign 
policy that will concentrate on relations with and influence 
over people and not just governments. A renewed concentration 
on public diplomacy and strategic influence will go a long way 
toward giving America a capability to secure our country while 
minimizing the need to use force to do so.
    Thank you.
    [The prepared statement of Mr. Lenczowski follows:]
 
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Doctor, thank you very much for those very 
thoughtful remarks.
    Dr. Syeed?

  STATEMENT OF SAYYID SYEED, PH.D., SENIOR ADVISOR, OFFICE OF 
 INTERFAITH AND COMMUNITY ALLIANCES, ISLAMIC SOCIETY OF NORTH 
                            AMERICA

    Mr. Syeed. Thank you.
    Distinguished leaders, greetings of peace, and, in Arabic, 
assalamu alaykum. Thank you for inviting me to this hearing, a 
valuable opportunity to present my understanding, experience, 
and vision about the role of Islam in promoting peaceful 
societies and our ability to counter the violent extremism not 
only in Muslim societies, among Muslims, but for people of all 
faiths and no faith.
    The past October marked the 19th anniversary of the 
landmark International Religious Freedom Act of 1998, which 
upholds religious freedom as a core American value and a 
universal human right. The law calls for the U.S. Government to 
stand ``for liberty and with the persecuted, to use and 
implement appropriate tools in the United States foreign policy 
apparatus . . . to promote respect for religious freedom by all 
governments and all peoples.''
    This institutional landmark act is very important not just 
for us as Americans but for us as humanity. Nearly two decades 
after the law's passage, freedom of religion or belief is 
unfortunately an unrealized ideal in too many parts of the 
world. The essence of Islam can be summarized as ``those who 
protect and promote religious freedom.'' I will elaborate on 
this further in my speech as I give you a brief background of 
myself and of the American Muslims.
    The Muslim community is as diverse as America itself, as 
humanity itself. We have members from all colors and 
ethnicities, from all schools of thought. Our success to bring 
them together and build institutions in large numbers--several 
thousand Islamic centers, several hundred full-time Islamic 
schools, and hundreds of Sunday schools--is a historical 
achievement by itself. The evolution of this community over 
half a century has strengthened my vision and that of my 
colleagues in democratic and pluralist institutions as most 
congenial for Islam as a faith and for Muslims believing in a 
peaceful message of Islam.
    Our vision of Islam was developed from the historical 
vision of the Prophet of Islam when he migrated from his 
hometown, Mecca, to Medina, where he recognized and respected 
the diversity of the population in terms of their faith and 
tribes.
    In his hometown, he was dealing with one tribe, the 
Quraysh, his own kith and kin, who persecuted him and his 
followers and did not allow him to teach and preach his 
religion. In contrast, he chose to move to a city where he 
invited representatives of different tribes--Aws, Khazraj, 
immigrants from Mecca, and several different Jewish tribes--
and, jointly, with all of them, drafted a constitution of 
Medina state where all the participating entities were given 
freedom to practice their religion and collectively be 
responsible for the welfare, safety, and security of the new 
state.
    This Medina constitution has served as a reminder for us as 
a forerunner of the United States Constitution giving us 
individual rights and freedom of religion. While developing our 
Muslim community, we had to educate our members that the only 
way we could develop our congregations and communities was to 
incorporate our organizations and adopt constitutions. This 
helped our members to become religiously conscious of the 
rights and duties, rules and regulations that govern our 
Islamic Centers, our umbrella organization with which these 
centers were affiliated.
    This provided a rich experience in mutual respect, power 
sharing, membership of men and women in administering our 
institutions. Eventually, we have by now Muslim women not only 
serving on the boards of Islamic organizations but heading 
national institutions.
    The Medina model of the Prophet, after his passing away and 
after the four successors became irrelevant because of the 
dynastic rule of monarchy for all the subsequent centuries. 
Today, Muslim countries that are independent and are members of 
the Organization of Islamic Cooperation (OIC) because they are 
Muslim-majority countries are ruled by either monarchs or 
dictators. The American Muslim community is the only Muslim 
community in the world that has lived in a democracy with a 
constitutional commitment to freedom of religion, highlighting 
the essence of Islam and promotion of human rights.
    There have been times when hatred against Islam has 
resulted in dangerous acts of violence and intolerance. But it 
is in those times, those moments of challenge that we have 
experienced the highest level of support from other faith 
groups denouncing hate against Muslims in the name of religion.
    When the pastor in Florida threatened to burn the Koran as 
a means of intensifying hate against Muslims and Islam, the 
major religious organizations in America--National Council of 
Churches, Catholic Conference of Bishops, Union of Reform 
Judaism, American Baptist Church, and others--came forward to 
denounce the pastor's hateful rhetoric and expressed their 
support to me, representing the largest and oldest Islamic 
organization.
    And they held a press conference in Washington, DC, and 
established a campaign called, ``Shoulder to Shoulder: Standing 
with American Muslims Against Anti-Muslim Sentiment, Upholding 
American Values.'' This campaign is steered and funded by more 
than 30 Christian and Jewish national organizations here to 
date.
    The Koranic verse, ``There is no compulsion in religion,'' 
has been our guiding light. We have people coming into Islam 
and going out of Islam. We are proud to say that we have a 
large number of leaders of the American Muslim community who 
were not born Muslims. We are aware of Muslims who have, of 
their free will, chosen to give up their religion. We find 
nothing in the Koran or in the example of the Prophet that 
would have commanded us not to allow such a free will to be 
treated with respect to the choice of religion or no religion.
    It has been painful at times for us to see some hatemongers 
producing cartoons and false allegations against our prophet. 
While it is our duty to promote a better understanding about 
our prophet's life and contributions, we cannot fight hate with 
hate. Again, we find in the life of the Prophet instances where 
he was directly insulted but he prayed for the misguided for 
peace and guidance. However, we should not allow extremists to 
take actions in the name of Islam as a means of retaliation.
    We have built robust partnerships with people of other 
faiths and celebrated theological developments that we 
appreciate as Muslims. The Nostra Aetate from the Second 
Vatican opened the doors for Catholics to remove the stigma 
against Jews as the ones responsible for the crucifixion and 
for welcoming Abrahamic roots of Judaism and Islam. We 
celebrated the 50th anniversary of Nostra Aetate in 2015 with 
the U.S. Conference of Catholic Bishops as a welcome reform 
within Christianity.
    We celebrated this year the 500th anniversary of Martin 
Luther's desire to understand Islam and engage with it and his 
commissioning the translation of the Koran for the first time 
in Christian history.
    We have worked with various denominations of Judaism to 
have a better understanding between Jewish and Muslim 
communities under our joint project called Children of Abraham.
    These achievements in the understanding of our faith in a 
pluralist society have tremendous implications for the Muslim 
world. The books, the electronic materials are of utmost 
importance for giving hope and confidence to our new 
generations around the globe.
    Our American Constitution provides us the opportunity for 
life, liberty, and pursuit of happiness--the three key elements 
of human rights. American Muslims have thrived due to the 
liberties that every American citizen in this great country can 
enjoy.
    Now is a time when we need to work together as Americans. 
The best of America is represented as ``love thy neighbor,'' 
and, as neighbors, I am always heartened to see organizations 
like Islamic Relief working directly with government and 
interfaith organizations alike to solve the problems and bring 
relief. The work of LDS Charities, United Methodist Church, 
Catholic Relief Services, and many more, in partnership with 
Islamic Relief USA, rebuild our Nation's communities and give 
hope to them.
    When we work together across all faiths, America is 
stronger. Organizations like Guidance Residential, which 
provides American Muslims the opportunity to be compliant with 
their sharia requirement to buy their homes without interest--
and it is amazing that 97 percent of the people who are 
benefiting from Guidance Residential are not Muslims.
    American Muslims flourish when America flourishes, and 
America excels when all of its citizens excel. For us to make 
America great, we have to reach out to all Americans of all 
faiths, all ethnicities, all backgrounds with respect and 
dignity, opening up opportunities and prosperity for all.
    Thank you for your time and this opportunity to be here 
with you today.
    [The prepared statement of Mr. Syeed follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                              ----------                              

    Mr. Smith. Dr. Syeed, thank you very much for your 
testimony and leadership.
    I would like to now yield the floor to Mr. Hicks.

STATEMENT OF MR. NEIL HICKS, DIRECTOR, HUMAN RIGHTS PROMOTION, 
                       HUMAN RIGHTS FIRST

    Mr. Hicks. Thank you, Mr. Chairman.
    Chairman Smith, Ranking Member Bass, and other members of 
the subcommittee, thank you for convening this hearing to call 
attention to what we at Human Rights First view as the 
imperative need to include human rights promotion as an 
indispensable element of effective policy aimed at countering 
and preventing violent extremism.
    Counterterrorism measures that are not rooted in respect 
for human rights risk being counterproductive. The recent 
histories of numerous countries, Egypt being one important 
example, point to the dangers inherent in counterterrorism 
responses that are overly focused on military force, 
repression, and denial of human rights. These approaches fuel 
grievances, which create escalating cycles of violence between 
state security forces and violent extremists that become hard 
to contain.
    Human Rights First is concerned that the Trump 
administration has exhibited a marked preference for close 
cooperation with authoritarian leaders in the struggle against 
terrorism and violent extremism instead of emphasizing the need 
for U.S. partners to end violations and extend human rights 
protections as an integral part of shared efforts to prevent 
extremism and combat terrorism.
    The clearest example of this approach may be seen in 
President Trump's speech at the Arab Islamic American Summit in 
Riyadh on May the 21st of this year. Trump spoke of a new 
chapter and of new approaches, but there is nothing new about a 
U.S. approach to the Middle East rooted in alliances with 
authoritarian governments.
    By aligning the United States uncritically with a Saudi-led 
authoritarian regional order, President Trump may hope that he 
is turning the clock back to a more stable time. But the 
protracted collapse and inherent instability of the Arab 
authoritarian order has been one of the root causes of both the 
spread of terrorism over the last 20 years and of the region's 
many unresolved conflicts, which have provided hospitable 
territory and recruitment opportunities for violent extremist 
groups.
    One of the few specific policy proposals in the Riyadh 
speech was a call on all nations of conscience to isolate Iran. 
President Trump is right to point to destabilizing activities 
of the regime in Tehran, but a one-sided position in the 
regional conflict between Saudi Arabia and Iran, which has 
taken on an increasingly inflammatory sectarian tone in recent 
years thanks to the policies of both sides, will only escalate 
violence and instability.
    In Egypt, Abdel Fattah el-Sisi seized power in July 2013 on 
a promise of restoring order and defeating extremism and 
terrorism, but his methods have made things far worse. Violence 
has risen, claiming civilian and military casualties on an 
unprecedented scale.
    The virulent anti-Sufi propaganda of ISIS was a clear 
contributory factor in the recent mosque attack in Sinai. This 
sectarian hate speech is propagated by the religious 
establishment in Saudi Arabia and put into bloody practice by 
ISIS. After this latest atrocity, President Trump should be 
urgently in touch with his friends in Riyadh to end the 
incitement to violence against Sufis in Saudi religious 
teaching.
    A secondary way the U.S. Government can exert influence is 
through its military and intelligence cooperation on 
counterterrorism issues with countries like Egypt. The Congress 
has been raising concerns that President Sisi's 
counterterrorism approach is exacerbating the problem, but much 
more needs to be done.
    The Senate version of the 2018 appropriations bill includes 
some strong and specific language imposing human rights 
conditions on military assistance but specifically exempts 
funds appropriated for counterterrorism from these conditions.
    The Egyptian Government claims success in its fight against 
terrorism because it is killing terrorists and denying ISIS 
control of territory. But killing and destruction are not 
deterring Egypt's terrorists. Sisi's government is badly in 
need of a new plan, and the U.S. Government should be 
forthright in urging Cairo to look beyond a failed security-
centric approach.
    Absence of state control over territory has been a factor 
in the development of violent extremism in Syria and Iraq. The 
devastating conflict in Syria and Iraq has been fueled by 
sectarian incitement exacerbating divisions between Shia and 
Sunni Muslims. The proxy war between Iran and Saudi Arabia has 
heightened the sectarian character of the conflict and thereby 
made sectarianism a primary driver of violent extremism in many 
parts of the region.
    The Tunisian context provides a point of contrast. Avoiding 
falling into the declining spiral of a destructive binary 
struggle between authoritarianism and violent extremism is 
something that binds Tunisians together despite abiding 
political differences, a weak economy, and a fragile internal 
security situation.
    Tunisia is not paradise. Its discontented youth have 
provided thousands of foreign fighters to ISIS and Syria. In 
part, this is a product of the lingering harm inflicted by 
decades of authoritarian rule, notably the weakening of 
traditional religious power centers, tainted by close 
association with state authorities. Corruption, youth 
unemployment, and lack of opportunity fuel grievances, 
especially among educated youth, who have ready access to the 
internet and social media.
    Tunisia's democratic transition has particular importance 
to the struggle against violent extremism on a regional and 
global level. It offers an alternative way that breaks out of 
the vicious circle of perpetual conflict between 
authoritarianism and extremism.
    To succeed, Tunisia will need the sustained support of the 
international community. It will also need to continue to 
implement and practice the maxim that fighting terrorism is not 
just something that the state does for its people, it is 
something that people are motivated to do for themselves, in 
partnership with the state and the security forces, but also 
through strong, independent civil society organizations.
    The United States can do much more to confront violators 
and, perhaps even more importantly, to reinforce the link 
between human rights and security. Too many governments 
continue to view human rights as an obstacle to security-
related efforts. It is, therefore, incumbent on the United 
States to explain why the exact opposite is true.
    There are positive human rights objectives to be advanced 
that should be at the center of bilateral relationships with 
partners in the multilateral struggle against terrorism.
    Closing space for civil society in peaceful political 
activities facilitates the expansion of violent extremism and 
terrorism. Conversely, respecting fundamental freedoms, 
especially the freedom of assembly and association, is one of 
the most important defense mechanisms against violent 
extremism.
    Respect for religious freedom is an essential part of 
countering violent extremism, as Dr. Farr explained. A 
comprehensive strategy must address the religious and 
ideological narratives that lure the vulnerable and 
disenfranchised segments of society to violent extremism.
    To be effective as counterweights to extremist discourse, 
religious institutions must be, and be seen to be, independent 
of political control, and governments must ensure that diverse 
religious views are not only tolerated but encouraged.
    One of the primary root causes that must be addressed more 
vigorously is the proliferation of armed conflicts and of 
ungoverned spaces that provide opportunity to violent extremist 
groups.
    The United States, because of its unique reach and 
influence, has an inescapable responsibility to lead and 
energize multilateral efforts through the United Nations and 
other multilateral institutions to end these devastating 
conflicts. The absence of effective conflict-resolution 
mechanisms on both national and international levels is one of 
the greatest challenges to the implementation of a 
comprehensive countering-violent-extremism strategy.
    Thank you.
    [The prepared statement of Mr. Hicks follows:]
  
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                              ----------                              

    Mr. Smith. Mr. Hicks, thank you for your testimony and your 
insights.
    I would like to begin the questioning with Dr. Farr.
    First, let me thank you. When you testified in September 
2014 on the Frank Wolf International Religious Freedom Act, 
which was making its way through Congress, you made a number of 
recommendations, and they were, largely, many of them, 
incorporated into the bill, including the training of foreign 
service officers. So I want to thank you for those 
recommendations.
    On Monday, I met again with Chaldean Catholic Bishop Bashar 
Warda, who I first met last year in Erbil. He has led the 
effort to help Christians and the Yazidis with critical 
humanitarian aid, including food, clothing, shelter, medicine, 
and spiritual help, because a lot of people were, as he said, 
unbelievably broken by ISIS, as they lost loved ones and, 
themselves, were tortured and the women often sexually abused.
    We did not have, as I think everyone knows now, any U.S. 
foreign aid going to assist the Christians and the Yazidis. I 
went to an IDP camp with 6,000 people without a dime of U.S. 
support. That is in the process of changing.
    But we introduced bipartisan legislation, H.R. 390, the 
Iraq and Syria Genocide Emergency Relief and Accountability 
Act. It passed the House last June. I would say, for the 
record, I am gravely disappointed that the Senate has one hold 
on it, and it has been released from committee but it still has 
not made its way to the floor. President Trump has said he will 
sign it. So it is a concern.
    But I bring this up because, on Monday, Bishop Warda not 
only stressed urgency. It is winter. People are cold. They can 
get sick. They need humanitarian assistance. If it wasn't for 
the Knights of Columbus and others that forked over $40 
million, we would have had mass casualties and large numbers of 
deaths, particularly for children and the fragile elderly.
    But he made the point that you made, Dr. Farr, and you said 
religious pluralism is a necessary condition for long-term 
stability in Iraq. We have heard that before. I heard it from 
Ceric, the former Grand Mufti of Bosnia, when I was in 
Sarajevo. And he said that Christians and the Muslims and the 
Jews need to work together, and we do. In come the radicals, 
and they change everything. There is the tipping point toward 
death and destruction. And he spoke out, I think, very boldly. 
He was concerned about the Wahhabis coming in and was very 
clear and open about it, which I found extremely refreshing and 
encouraging.
    I heard the same thing when Bishop Angaelos testified here 
and talked about what the Coptic Christians do in Egypt. Not 
only should they live and thrive because they have a right, a 
universally recognized right, a great, historic faith 
tradition, but they also help the moderate Muslims in Egypt. 
And you have made that same point again. I would ask, if you 
could elaborate on that.
    And I would also ask my second question to Dr. Lenczowski.
    In your testimony, you spoke of the similarities between 
Marxism-Leninism and radical forms of Islamic thought. I am a 
great fan and I have read all the books by Solzhenitsyn, and I 
remember he talked about Marxism-Leninism being militant 
atheism. It is a hatred of God, certainly as we see God. And 
Solzhenitsyn made that famous statement when he said, why did 
it all happen? All the mass killings, the attacks on Jews and 
everyone else--Christians, the Orthodox Church. And he says, 
because we have forgotten God.
    And you have made the connection between these extremists. 
If you could elaborate on that, I think that would be very 
helpful for the committee.
    And, finally, Dr. Syeed, you talked about no compulsion in 
religion. These are such wonderful words. There should be a 
right to believe or not to believe. When we did the Frank Wolf 
bill, the opening part of that was that it is a right. You can 
believe or not believe; it is up to you.
    How do you convince other Muslims that there should be no 
compulsion in religion?
    Dr. Farr?
    Mr. Farr. Thank you, Mr. Smith.
    Just to restate, briefly, the question, and that is the 
importance of pluralism as stabilizing. If history teaches us 
anything on this issue, it is that, when any government or any 
state is completely dominated by one religion--and, of course, 
the history of Christianity and Catholicism helps us make this 
point. When the Church and the State are in cahoots in such a 
way that minorities are excluded, bad things happen to 
everybody, not just the minorities but the state and the 
majority religion. It is there. Our Founders understood it. 
This ought not to be rocket science for us today.
    And yet we do not approach--``we'' being the United States 
Government--do not approach this problem of Islamist extremism 
with this very simple, powerful, historical premise in mind 
that we, ourselves, as Americans, ought--it ought to be part of 
our DNA that if we do not--if we simply treat this as a 
humanitarian matter and spend money to return people to their 
homes but we don't provide them the opportunity to be 
integrated into these societies as minorities with equal 
rights, then we will not have served anybody.
    So this is why I put the emphasis on going to the 
stakeholders in Iraq in the example I gave, the Muslim 
stakeholders, to make a self-interest argument to them. It is 
not self-evident to them. They have not learned the lesson of 
Western history, if you will.
    But this isn't about criticizing Islam or anybody else. It 
is about making a very practical point: You will never live in 
peace and security if you don't get this issue of pluralism 
right, and we can help.
    Mr. Lenczowski. Thank you, Congressman. You have asked a 
very interesting question about the relationship between 
Marxism, Leninism, and radical Islamism.
    There are two basic dimensions of this. One is the rather 
explicit discussion of Marxist-Leninist strategy by Sayyid al-
Qutb, who is one of the principal ideologues of radical 
Islamism, and who was an admirer of Communist tactics and 
Communist revolutionary practice. So that is one dimension of 
the radical Islamist agenda which has very much to do with the 
exercise and manipulation of power.
    Perhaps the more interesting question has very much to do 
with theological and philosophical matters. As you said, 
Aleksandr Solzhenitsyn said that the problem is the rejection 
of God, both by communism and by secular elites in the West who 
have forgotten the fundamental foundations that ultimately are 
the origins of our entire Western concept of human rights.
    What is going on in Islam, first of all, with radical 
Islamists, is that they will take the Islamic doctrine that 
Allah is pure will and that Allah wills everything. He wills 
every minute, every second of every day. And that means he 
wills the cholera epidemic in Calcutta; he wills the rape of 
the 13-year-old girl.
    And so, if he wills everything, then the terrorist can come 
along and say, well, if I want to kill 60 people in the 
marketplace in Baghdad and succeed in doing so, then Allah must 
have willed it. All of a sudden, the terrorist's will is 
equated with Allah's will. He becomes his own God in his 
sphere.
    As Whittaker Chambers reminds us about communism, it goes 
back to the Garden of Eden, where the serpent tells Adam and 
Eve: Ye shall be as Gods. You can reject what the man upstairs 
is telling you to do and establish your own moral standards.
    So this now gets into another very interesting question 
about Islam, which is the fact that there is no Islamic pope. 
There is no theological authority who can say that this is what 
the correct doctrine is. The religion is very much up for 
grabs, and people from many different sectors of the religion 
can claim authenticity based on citing their own selective 
passages from the Koran.
    The Koran says, as Dr. Syeed says, that there is no 
compulsion in religion, but the Koran says other things about 
cutting the throats of infidels and that this can be done when 
people are at war with Islam. Well, this gets into the question 
of, well, is it true that infidels are at war with Islam?
    There is a relativism in this which is very akin to the 
running of Marxist ideology, where you can determine what the 
proper doctrine is according to circumstances. In Lenin's 
famous speech to the youth leagues in 1920, he said: There is 
no such thing as objective moral standards. That is a bourgeois 
prejudice. The real moral standards are: Whatever is good is 
that which helps the revolution and whatever is evil is that 
which hinders the revolution. And so, blowing up a busload of 
innocent schoolchildren: Is that good or evil? Well, it all 
depends upon whether it helps the revolution. You can draw 
circumstances where it could do one or the other.
    And so what you have here, when there is this kind of 
relativism within Islam, is that people can come along and say 
that the end justifies the means, which is what the Islamists 
do, and that is uncannily similar to the problem of Marxist-
Leninist morality.
    Mr. Syeed. Congressman, allow me to make a comment also.
    Mr. Smith. Push your button there.
    Mr. Syeed. Oh, I am sorry.
    Allow me to make a comment and bring a different comment on 
this.
    He mentioned Sayyid Qutb of Egypt, who is being used and 
whose writings are being interpreted by the extremists. Sayyid 
Qutb came to America in the 1950s on a fellowship to Colorado. 
He stayed here for a year. There were no Muslims there. There 
was no Islamic center there. His language was very limited. He 
could not establish connections and communication and 
understand what is the strength of America, what I have been 
discussing.
    Today, in Colorado, the same city where he came, we have 
more than a dozen Islamic centers. We have a vibrant Muslim 
community in Colorado. So you can imagine the difference and 
the distance of the experience.
    Two years ago, we had a guest from Lebanon, Sheikh Abu 
Zayd. He was invited here to address the annual--this prayer 
breakfast that we have here in Washington. So he addressed 
there. Then I invited him to the Congress here on Friday. I am 
sure that you know that we have Friday prayer congregation in 
the Congress. So I knew about his orientation and understanding 
as a scholar, a highly respected scholar, so I asked him to 
come and give his sermon here. So he was amazed, he couldn't 
believe it, that there is Friday prayer being held in the 
Congress. And then he went from city to city addressing various 
Muslim communities, growing prosperous, and he went back to 
Lebanon.
    Sayyid Qutb had written a book called, ``America As I Saw 
It.'' And you can imagine what he had seen 60 years ago--very 
bleak for him, in terms of Islamic presence in America. And 
here you have Abu Zayd going and writing a book exactly with 
the same name, ``America That I Have Seen.'' It is amazing how 
he feels so reassured that this is a country where Islam is 
flourishing and Muslims are dealing with their neighbors in a 
very positive and constructive way.
    So what I am trying to say is that there are certain very 
clear declarations which make Islam what Islam is. One of them 
is ``la ikraha fiddin.'' This is in the second chapter of the 
Koran, a very clear enunciation of the fundamental value of 
Islam.
    Now, we never saw any deviation from it during the life of 
the Prophet. Rather, he benefited. He actually utilized his 
relationship with other faiths. When his people were being 
persecuted in Mecca, he told them the only people who can 
understand what I am trying to do here, to bring Islam, faith 
in one God and relationship with Jesus and Moses and so on, the 
only people who can help you from getting some help out of this 
torture and so on is a Christian country in our neighborhood--
that is, in Ethiopia at that time. And, actually, a delegation 
of his followers, these Muslims, he went there and they came 
there. He gave them asylum. This was the relationship between 
Islam and Christianity.
    But you are aware that during the medieval times the 
relationship was changed into a confrontational relationship. 
We had the Crusades for several, several hundred years. So, 
therefore, perceptions were changed. So that is why, during 
that period, if somebody abandoned Islam and joined something 
else, it was not just a change of heart, it was not just change 
of faith, it was changing alliance, becoming your enemy, and, 
therefore, it would not be tolerated. So the same verse was not 
in operation because it did not say ``la ikraha fiddin''--
``din'' is ``religion''--so they are thinking that it is 
actually a political affiliation. So the result is, in every 
Muslim country, it is part of our legal system there that a 
change of religion cannot be tolerated.
    But for the first time during the last 50 years in this 
country, we have created these communities and neighborhoods. 
We have experienced how it is critical for us to benefit from 
the freedom of religion. And we have not seen anywhere in the 
scripture against that.
    I have been giving this example. I mean, how do we teach 
Muslims? It is very straightforward that we help them to 
understand the context and the Koranic--unqualified Koranic 
statement. So I wanted to give one example, if you think time 
will allow.
    Ms. Bass. No, it doesn't.
    Mr. Smith. Briefly. I do have a meeting with Mitch 
McConnell that I have been trying for a month to get on H.R. 
390, which is the bill that we are trying to get out of the 
Senate. But we will then yield to Ms. Bass, and Dan Donovan 
will take over in the chair.
    Ms. Bass. Thank you, Mr. Chair. And good luck over there in 
the Senate.
    I wanted to ask a couple of points of clarification.
    Dr. Farr, when you were talking about religious freedom--
and I agree with you. Of course, we need to have religious 
freedom. But I think about, in some of the places that we have 
been talking about today we can have all the religious freedom 
in the world, but if people don't have food, if people don't 
have a way to survive, then they are going to go with whatever 
group, organization, religion is going to provide them a way to 
survive.
    And I think about religious pluralism, and I also think we 
are talking about Islam, but you can have the same tendencies 
on the other side too--so the idea that there might be some 
people that believe that Muslims shouldn't be allowed in 
Congress or that you should not take the oath of office with 
the Koran. And there have been sentiments like that here.
    And so I just wanted to know if you would speak to that for 
a few minutes. And then I also wanted to talk about a few other 
things.
    Mr. Farr. Well, thank you, Ms. Bass.
    I agree with you in your earlier comments about the 
holistic approach. I think it is important that you have all of 
these considerations in a U.S. policy trying to undermine 
extremism. But it is my view that religious freedom has been 
the missing part of that policy, which has been the burden of 
what I have been trying to say. We have been pouring money into 
many societies for many years, with the intent of helping 
economic development, with the intent of helping civil society. 
All of these things I support. I think they are good. But 
religious freedom, as an aspect of this, I think, has been 
missing.
    With respect to our need to--if I can rephrase slightly 
what you said--in our own country, to model religious freedom, 
I couldn't agree more. It is very important that, as we have 
done historically, never perfectly, but we have all agreed to 
the aspiration given to us by our Founders in the First 
Amendment that everyone in America has religious freedom, 
everyone has a voice. And I think that this is under siege, 
personally, from both sides----
    Ms. Bass. Right.
    Mr. Farr [continuing]. Of the aisle. I think we have a big 
problem in our country about religious freedom. And as I say in 
my testimony, it is very difficult to sell a product in which 
you no longer believe or which you are confused about.
    So I think I am agreeing with you, Ms. Bass. I think this 
is very, very important that we talk about all of these things, 
them and us.
    Ms. Bass. Exactly. And I worry about the individual in the 
Senate that we might confirm and then not give him the tools to 
actually do his job.
    And I also worry about the vilification of Islam, that we 
collapse sometimes the distortion of Islam that has taken place 
with the religion itself.
    And so some of your comments about--and I am sorry, I don't 
want to mispronounce your name--about Marxism-Leninism and 
ideology and all, I wanted you to expand on a little bit. 
Because you are making a comparison, I believe--and please 
correct me if I'm wrong--between Marxism-Leninism and radical 
Islam. And Marxism-Leninism, in terms of how you organize a 
society, the economic foundations of Marxism-Leninism, I just 
don't understand that comparison at all.
    Mr. Lenczowski. The point that I was making has not so much 
to do with economic matters at all. Marxism-Leninism is a 
theory of knowledge, it is a theory of history, it is a theory 
of economy----
    Ms. Bass. Right.
    Mr. Lenczowski [continuing]. And all of that stuff. It is 
many, many things. But at the heart of it is a fundamental 
materialistic philosophy----
    Ms. Bass. Right.
    Mr. Lenczowski [continuing]. Which means the rejection of 
God, the rejection of any spiritual matters----
    Ms. Bass. Right.
    Mr. Lenczowski [continuing]. And the rejection, therefore, 
of objective moral standards--a transcendent, objective, 
universal moral order that either inheres in nature or comes 
from God. Objective moral standards of right and wrong can only 
come from those two places.
    And the Marxism-Leninism----
    Ms. Bass. Can only come from what places?
    Mr. Lenczowski. Objective standards of right and wrong can 
only come either by inhering in nature somehow or they can be 
given to us by God, by some higher moral intelligence that 
infuses them into the human heart. Either way, this is what the 
philosophers call the natural law.
    Ms. Bass. Uh-huh.
    Mr. Lenczowski. C.S. Lewis called it the law of decent 
behavior.
    Ms. Bass. So if one under Marxism-Leninism does not 
subscribe to God, how does that relate to Islam----
    Mr. Lenczowski. It relates to Islam----
    Ms. Bass [continuing]. That does believe in God?
    Mr. Lenczowski [continuing]. Because, first of all, under 
Marxism-Leninism, people choose what is right and wrong 
according to circumstances. In my little example of blowing up 
that school bus of children, if you blow it up and the result 
is that the people of the society reacts with sort of a police 
state reaction, huge new security measures, all kinds of people 
could become alienated from a police state environment and 
develop a revolutionary consciousness against the state. This 
will be good for the Marxist revolution.
    Ms. Bass. We fight wars----
    Mr. Lenczowski. So that is one----
    Ms. Bass. We fight wars----
    Mr. Lenczowski. Sure. But that is----
    Ms. Bass [continuing]. To get rid of an ideology.
    Mr. Lenczowski. That is one example.
    But, alternatively, blowing up that school bus may awaken 
the sleeping giant of a complacent society to be more vigilant 
against revolutionary forces that blew up that bus. And so, 
people do terrorist acts as the ``propaganda of the deed.''
    Ms. Bass. Right.
    Mr. Lenczowski. It is to promote their political agenda. 
And so the radical Islamists perform these ``propaganda acts of 
the deed'' because they believe that it is morally correct----
    Ms. Bass. So----
    Mr. Lenczowski [continuing]. Which means they are rejecting 
the natural law----
    Ms. Bass. So let me----
    Mr. Lenczowski [continuing]. View of this, and----
    Ms. Bass. Let me just explain to you what I am concerned 
about, because--and I am not sure, again, if you were saying 
this, and if you weren't, tell me.
    Mr. Lenczowski. Yes.
    Ms. Bass. If we view this from the perspective that the way 
we should proceed is the way we did during the anti-Communist 
period, and if you take the continent of Africa, for example, 
we made some pretty bad decisions because we were fighting 
communism. So we chose some bad sides. We supported apartheid, 
we supported colonial powers, because we were trying to defeat 
communism instead of addressing the main point, which is why 
people were driven toward one ideology or another. It was 
because people were trying to survive, and they were trying to 
address their socioeconomic conditions.
    So when I hear you, I feel like you might be saying that 
the way we need to approach this time period is a battle over 
ideologies and that we need to convince the Islamic world that 
our ideology is better, as opposed to looking at some of the 
root causes that drive people toward one ideology or another.
    So I would just ask you, is that what you are saying, that 
we need to fight this ideologically?
    Mr. Lenczowski. Yes, we do need to fight it ideologically. 
Poverty has existed for centuries. I visited all the countries 
in the Middle East back in the 1960s. I saw desperate poverty 
there, beggars everywhere--desperate, desperate poverty. And my 
heart went out to those people. The problem is that they 
weren't generating terrorists the way terrorists are being 
generated today.
    And, yes, Harry Truman said in his famous Truman Doctrine 
speech that Communist revolution can be kindled in the soil of 
poverty and strife.
    Ms. Bass. Okay. Let me----
    Mr. Lenczowski. I agree with that.
    Ms. Bass. Excuse me. Excuse me. Let me move on, because I 
would like to ask Dr. Syeed, do you see a comparison between 
Marxism-Leninism and radical Islam?
    And then I would like to ask Mr. Hicks to respond to this 
dialogue.
    Dr. Syeed?
    Mr. Syeed. It is very difficult for----
    Ms. Bass. Can you put your microphone on?
    Mr. Syeed. Historically, it is Islam that ultimately 
brought down communism. You remember, in Afghanistan, when they 
occupied Afghanistan, and we were able to help the local 
Muslims to fight against them, because it was a religious duty 
for them. So, in that sense, I cannot see any comparison 
between the two.
    What I see, basically, is that in the Muslim world, because 
of, as you were mentioning, dictatorships, because of extremely 
difficult situations where people were tortured, tormented, it 
has created a very strange kind of psychology. And they are 
using appeals to Islam to fight against something that they 
believe is evil and something that has to be destroyed.
    Ms. Bass. Okay.
    Mr. Syeed. So----
    Ms. Bass. Mr. Hicks?
    Mr. Hicks. Thank you, Ms. Bass.
    Just to say a few words about this discussion, I think the 
parallel that Dr. Lenczowski is describing is religion being 
manipulated to become a totalitarian ideology. And, in that 
happening, there is, obviously, some similarity with 
totalitarian Marxism.
    What I don't see and where I think I differ with Dr. 
Lenczowski, I don't see that this is particular to Islam. I 
think in the past we have seen other religions being 
manipulated and used in similar ways and having totalitarian 
ideologies. Arguably, we are seeing now in Myanmar Buddhism 
being used as a totalitarian ideology to commit ethnic 
cleansing and genocide against Muslim inhabitants of Myanmar. 
So, yes, religions are susceptible to this kind of totalitarian 
interpretation, but it is not uniquely Muslim.
    If I could just say a few words about how I think my 
testimony differs a bit from some of the testimonies we have 
heard today. I was trying to focus on what I see as being the 
push factors for violent extremism, and they include factors 
like authoritarianism, sectarianism, conflict, and ungoverned 
space. And, unfortunately, I see all of these problems not 
being remedied by current U.S. policy and, in fact, being 
exacerbated, in certain cases.
    And there are certain remedies, which I briefly mentioned 
in my remarks and which I go into in more depth in my longer 
testimony, which include religious freedom, so I completely 
agree with Dr. Farr, but also promoting other types of human 
rights and basic freedoms.
    Ms. Bass. Thank you.
    And before I turn it over to you, Mr. Chair, let me just 
wrap up by saying that I just believe that we need to have a 
comprehensive approach. I mean, I support religious freedom. I 
know it is ideology. I know we shouldn't vilify Islam. And I 
know we need to look at the human rights issues. But I do think 
it is really important for us to learn from history and to go 
back and to look at some of those past periods, which is why I 
was taking issue with it just being, you know, an ideological 
fight. We need all of the above.
    Thank you, Mr. Chair.
    Mr. Donovan [presiding]. Thank you, Ranking----
    Mr. Lenczowski. Congresswoman, I just wanted to say, lest 
you misunderstand, I focused on the ideological issue because 
it has been the one hugely neglected part of all of this. I 
totally support the comprehensive approach that you are talking 
about.
    Ms. Bass. Thank you.
    Mr. Donovan. Thank you, Ranking Member.
    Before we continue, I would like to enter into the record a 
statement by Qamar-ul Huda, director of security and violent 
extremism at the Center for Global Policy.
    Hearing no objection, so ordered.
    At least two of our witnesses have a hard stop at 12 
o'clock, so I would ask the members if they could keep their 
questions shorter than they have been, just so everybody gets a 
chance.
    The Chair now recognizes Ambassador Rooney.
    Mr. Rooney. Thank you, Mr. Chairman.
    First, all the talk about faith and the role of faith in 
God in human behavior and the dialectical materialism of the 
Soviet Marxist-Leninist ideology that tried to expunge it 
reminds me of Pope Benedict's famous quote, that the notion 
that there is a God gives rise to the concept of human rights 
and of individuals taking responsibility for their own 
behavior, which was kind of paraphrasing Saint Augustine. And I 
think that thread runs through a lot of this, is having 
individuals take responsibility for their behavior because they 
truly believe in the dignity of each human being.
    With that said, there is a question here going back to the 
Marrakesh Declaration and the protection of religious 
minorities. And I would like to get all of your opinions of how 
the declaration can really be meaningful in the context of the 
existence of blasphemy laws and sharia law applied in a civil 
context.
    Dr. Syeed introduced me to the great line one time of we 
need a Nostra Aetate from Islam. And so I think that we have 
lofty goals, but how do we square those with what is really 
going on in the world right now?
    Whichever one. Each one of you have touched on the 
Marrakesh Declaration and sharia law and blasphemy laws.
    Mr. Syeed. We believe the Marrakesh Declaration was a 
result of our efforts here. We were able to convince them that 
in the light of the Medina, this covenant, we need to do 
something on the same lines at an international level. Because 
the issue was how Muslims are committed through Islam to make 
sure that the minorities living in Muslim-majority countries 
are a trust from God and they have to be given full freedom in 
their religion, safety, and security.
    But the new approach that we had developed as American 
Muslims is this reconnecting with the Medina Declaration, with 
the Medina state, living in a pluralist society. So that gave 
it some new sense of direction, and the participants were very 
excited about that. That is why I believe that we have, 
collectively, a responsibility to watch and see that the 
Marrakesh Declaration is being implemented and followed up.
    Mr. Rooney. So would the declaration call for the 
elimination of blasphemy laws and sharia law applied in a civil 
context?
    Mr. Syeed. It sets a stage for that. Because I was giving 
the example here, how, as American Muslims, living so closely 
and having developed our institution in collaboration with 
people of other faith, it has helped us directly to address 
these things.
    So I was giving one example about this freedom of religion. 
We have in American Islamic centers people coming in from time 
to time and they say that we have studied Islam and we would 
like to convert.
    I remember one example that I would like to put on record 
here. Years ago, in the Islamic Center of Bloomington, Indiana, 
a student came, and he said, I am doing a Ph.D. in philosophy, 
and I am taking a course in Islam, and I would like you to help 
me to understand Islam more. So we told him that you are 
welcome, you can come and visit the Islamic Center whenever you 
want. So he continued to come, and after about a year he said, 
I have studied Islam, I have seen you guys, how you pray and 
fast and so on, I am convinced I want to become a Muslim.
    So this is happening in America because we have freedom of 
religion.
    Mr. Rooney. Right.
    Mr. Syeed. And he became a Muslim.
    Mr. Rooney. And we don't have blasphemy laws and sharia 
law, except for a couple of Federal judges have allowed it.
    Mr. Syeed. Right.
    Mr. Rooney. We also would like to get, if we still have 
time, to get Tom and John to make a comment about this as well.
    Mr. Syeed. But let me take it to its conclusion.
    We had a job, the director's job, in the Islamic Center, 
and the next year he applied, and he became our director of the 
Islamic Center.
    Mr. Rooney. Great.
    Mr. Syeed. But within 3, 4 years, we found him getting 
slackened in his socialization with Muslims and in his Islam 
and so on. So, after 4 or 5 years, he renounced Islam.
    So the American strength of freedom of religion--on the one 
hand, we will accept people to come, and, on the other hand, 
without any problem, we let them go back. And I am convinced 
that there must be many, many. I am aware of many. But that 
doesn't bother me.
    But what excites me is that, today, if we make a list of 
top 50 Muslim leaders, a large number of them were not born 
Muslims. So that is what strengthens.
    But this cannot happen in other countries----
    Mr. Rooney. Right.
    Mr. Syeed [continuing]. Because over the centuries----
    Mr. Rooney. Right.
    Mr. Syeed [continuing]. Different interpretations have been 
made which are extraneous to the Koran and do not actually----
    Mr. Rooney. Oh, good. So we can get a declaration that 
blasphemy laws are extraneous from the Koran, as is the 
application of sharia law in a civil context.
    Mr. Syeed. We have books and books----
    Mr. Rooney. No, that is real progress.
    Mr. Syeed. We have produced enough literature, if you want. 
I gave you last time a couple of those books----
    Mr. Rooney. I have read them. They are very good.
    Mr. Syeed. So I am not saying out of nothing.
    Mr. Rooney. Right.
    Mr. Syeed. I am saying that these 50 years have been a rich 
experience and productivity. We have, by now, Web sites, 
discussion, conversations, fatwas about these issues.
    Mr. Rooney. Thank you, Dr. Syeed.
    John and Tom? I know we don't have much time, so you say--
okay.
    Mr. Farr. Thank you for the question, Ambassador.
    If we could get Mr. Syeed's views accepted throughout the 
Middle East, it would be a gigantic step forward. And, indeed, 
the problem with blasphemy laws, as he knows and as you know, 
it is the use of the state to prevent religious speech. It 
harms non-Muslim minorities, but it also prevents Muslims who 
wish to speak out about their own religion from speaking out. 
They are charged with blasphemy if they do so.
    The Marrakesh Declaration does not deal with this, but it 
is a realistic step forward. It is from the heart of Islam.
    And I leave this weekend to go to Rome for a week of 
discussions with Middle Eastern Muslims about this very issue. 
They recognize that, as Dr. Syeed does, this is a serious 
problem that can't simply be waved away by passing a law. It is 
a deeply cultural issue that has to be dealt with. But it is 
important enough, they believe, to get on with it, and we want 
to help them do that.
    And one of the things that we are going to do is present to 
them an understanding of the Catholic development of doctrine. 
The way the Catholic church came to its understanding of 
religious freedom was reaching into the deep part of its own 
doctrine and allowing it to work with history.
    And, hopefully, even though John is correct, there is no 
pope, there is no magisterium, this is more difficult in Islam, 
but, nevertheless, it is vitally important, and we want to 
encourage this. So I think this is getting right at the issue, 
the nub of the issue.
    Mr. Lenczowski. Congressman and Ambassador, I just would 
like to say in this connection that this is one of these issues 
that points to the need for greater capacity in public 
diplomacy and foreign information.
    A huge part of the battle against radical Islamism and in 
any political warfare involves anathematizing that which is 
evil. It involves isolating it from its potential population 
support base and recruitment base, separating it from its 
allies and so on. That is the basic principle of political 
warfare.
    So what this means is that we have to anathematize the 
radical Islamists. We have to point out their corruption. We 
have to point out their use of slavery, of sex slavery. You 
have to point out the many features of totalitarianism that 
exist under radical Islamist orders, whether it is the Islamic 
State or the quasi-totalitarianism in sharia-grounded Islamist 
states. We have to talk about their active collaboration with 
criminal activity, including narcotics, kidnapping, human 
trafficking, smuggling. We have to talk about the systematic 
violation of human rights, the treating of religious minorities 
as ``dhimmis.'' The blasphemy laws are part of all of this.
    Now, who is going to do this? We can do some of it. The 
problem is that there are loads of politically moderate Muslims 
who believe in religious liberty, who believe in tolerance and 
pluralism, and many of those people are subjected to fatwas to 
kill them when they want to talk about these things.
    Mr. Rooney. Like Pakistan last week.
    Mr. Lenczowski. Yes. Yes. And so these people need to be 
given a megaphone. They need physical protection. And the 
megaphone can be through various information media.
    Some of this stuff requires not only overt public diplomacy 
capabilities in what ought to be a new public diplomacy agency, 
but it requires a covert political action capability in our 
Central Intelligence Agency where people can be funded and 
there are no American fingerprints. They can get support, 
whether it is physical support, where there is no association 
with intelligence activities. They may get support from some 
foundation somewhere. Where did that money come from? Well, who 
knows?
    Mr. Rooney. It sounds like Poland in 1983, doesn't it?
    Mr. Lenczowski. You bet.
    Mr. Rooney. Yeah. Thank you.
    Mr. Lenczowski. You are welcome.
    Mr. Donovan. We have four more members that wish to ask 
questions and about 20 minutes, so I would ask the members to 
keep their questions to the 5 minutes.
    The Chair now recognizes the gentleman from New York, Mr. 
Suozzi.
    Mr. Suozzi. I want to thank everybody for their testimony 
today. It has been a great education.
    Every person of faith wants to try and persuade other 
people to join their faith. We are told to evangelize, in my 
religion, to convince other people to join our faith. And the 
problem, of course, with Islamists is that we are finding that 
some people are using violence and oppression to try and 
persuade people to join their faith.
    So, in practical terms, there are 2.5 billion Christians in 
the world. There are 1.5 billion, 1.6 billion Muslims in the 
world. There are 900 million Hindus. There are 300 million 
Buddhists. There are 40 million Sikhs. There are 14 million 
Jews, of which 6 million were killed during the Holocaust.
    And we need to figure out how to focus on Muslims of 
different majority-Muslim countries that are on board with our 
agenda of trying to stop violence and extremism from being 
used.
    So Dr. Farr made reference to the importance of the Middle 
East. Of the 1.5 billion Muslims in the world, according to the 
Pew Research report, 986 million of the Muslims are in the 
Asia-Pacific region, there are 317 million in the Middle East, 
there are 248 million in sub-Saharan Africa, 43 million in 
Europe, 3.4 million in North America, and less than 1 million 
in South America.
    So we need to, I believe, focus a lot of our attention on 
those places that have not gone over to the dark side, so to 
speak. I am concerned about Indonesia, which has historically 
been a very tolerant place, and there have been efforts to try 
and radicalize the people in Indonesia.
    As Americans, our country should be working to try and 
foster this tolerant behavior of Indonesia in other places in 
the world. One of the second-largest countries in the world 
with the Muslims is Pakistan. And we see what we have been 
trying to do in America to try and rein Pakistan's behavior in 
on certain things related to their relationship with 
Afghanistan and behavior in that region. We need to figure out 
what we need to do more to focus our energies there.
    India is a great opportunity for us to have a tolerant 
community with Muslims and what we can do to foster, similar to 
Indonesia.
    So I want to ask each of you, in very practical terms, what 
is the one thing for each of you--you each get one thing, 
because I only have 3 more minutes--one thing you think we 
should be focusing on to try and protect those folks that would 
normally be our allies in this effort, that we don't want them 
to be pushed over to the dark side, so to speak, or the one 
thing that you want to do to try and reverse the trend in 
places where it has gone bad.
    Everybody gets one thing, practical terms, what we should 
be doing to try and address this issue.
    Mr. Farr. We should be empowering, for lack of a better 
term, the moderates in each of these communities. They do 
exist, especially in Indonesia, as you said. They exist----
    Mr. Suozzi. So how could we do that in Indonesia?
    Mr. Farr. We can help to support the civil society 
organizations like Nahdlatul Ulama.
    I would add to what Dr. Lenczowski said, that, in addition 
to the United States public diplomacy and covert action that he 
recommends, we should be encouraging private groups, civil 
society groups, there and here to do this.
    So my one thing is go to each of these groups and encourage 
them to make arguments that are based on their own interests. 
They already get it. We don't have to wag Article 18 of the 
U.N. declaration--which is fine, but we have been doing that 
for years. It doesn't work. What might work is self-interest.
    Mr. Suozzi. Okay. Thank you.
    Doctor?
    Mr. Lenczowski. I would like to second Dr. Farr's comment. 
I believe that if we had both a public diplomacy agency and a 
covert political action capability, we could be doing our own 
information programs in order to ensure that the politically 
moderate populations in the Islamic world are amply warned 
about the full implications of the dark side, so to speak.
    Mr. Suozzi. Where is a good place to focus our intentions 
other than Indonesia and Pakistan and India?
    Mr. Lenczowski. I think that all--I mean, all of these 
places.
    Mr. Suozzi. Well, we can't do all these places.
    Mr. Lenczowski. I know, but we need to have a capacity to 
do it. We broadcast in 50 languages at the Voice of America, 
which successive administrations, for example, have been busy 
destroying.
    Mr. Suozzi. So is there a particular place----
    Mr. Lenczowski. We stopped the Arabic service of the Voice 
of America and replaced it with a rock-and-roll station. Is----
    Mr. Suozzi. Is there a particular----
    Mr. Lenczowski [continuing]. That serious public diplomacy?
    Mr. Suozzi. Is there a particular place that you think is 
more tolerant now that we are worried about losing? Or is there 
a particular place that you think is going over to the dark 
side that we have to stop it from happening?
    Mr. Lenczowski. I think that Indonesia is moving in a wrong 
direction.
    Mr. Suozzi. Well, Indonesia is a very big focus.
    Mr. Lenczowski. It is really moving in a wrong direction. I 
have some sources that tell me that the Indonesian military and 
higher authorities are going to let it get worse and worse and 
worse and finally crack down on it, violently, in order to stop 
it, the way it has been done there before.
    And so it is not good, and it is because the war of ideas 
is not being fought as stoutly and vigorously----
    Mr. Suozzi. You are not playing nice with the time limits, 
though. I have to keep it moving for my colleagues.
    Mr. Lenczowski. I understand.
    Mr. Suozzi. Okay. Dr. Syeed?
    Mr. Syeed. Congressman, we have this thing in mind because 
Muslims in America who have been able during the last half a 
century to create a new reality, whatever questions there were, 
this is the only place where we have experimented with them and 
found that they are the heart of Islam.
    So we have reached out, particularly the German, and even 
British and French, they recognize that. That is why they have 
been sending, from time to time, their leaders to visit and 
participate in our conventions and programs--not as much as we 
should have.
    So, similarly, I have taken delegations, interfaith 
delegations, from here to Indonesia. Because we know in those 
countries how we would be able to support and reinforce those 
elements at least who are very clear about these issues.
    Mr. Suozzi. Yeah.
    Mr. Syeed. And it gets reinforced when there is this 
exchange. So we need more help----
    Mr. Suozzi. We should work with the Pakistani Americans to 
work on Pakistan----
    Mr. Syeed. Definitely.
    Mr. Suozzi [continuing]. Specifically, as well. That is a 
good idea.
    Mr. Syeed. Yes. Yes.
    Mr. Suozzi. Okay. Mr. Hicks?
    Mr. Hicks. Two very specific things.
    Firstly, Saudi Arabia has been propagating extremist 
ideology----
    Mr. Suozzi. Right.
    Mr. Hicks [continuing]. Around the Islamic world for 
decades.
    Mr. Suozzi. Yep.
    Mr. Hicks. And if they are----
    Mr. Suozzi. They are way ahead.
    Mr. Hicks. If they are our best friends, in terms of 
fighting extremism, then they need to start behaving like that.
    Mr. Suozzi. Yeah.
    Mr. Hicks. And there are a lot of specific things that can 
be raised by the U.S. Government and should be raised more 
firmly.
    And, secondly, I mentioned Tunisia. And Tunisia is a very 
important counterexample. On this issue of blasphemy we were 
talking about, the religious leadership in Tunisia has 
specifically said that blasphemy is not something that should 
be punished by the state. And they have made many compromises 
with the civil government to move forward the political process 
in Tunisia.
    Mr. Suozzi. Thank you very much.
    Thank you to each of you.
    Mr. Lenczowski. Congressman, I just wanted to say in 
reference to Mr. Hicks' comment, I believe that the U.S. 
Government ought to be considering a little bit more some 
policies of reciprocity.
    If the Saudi Government is permitted to build all sorts of 
mosques, bring their money, and get rid of politically moderate 
imams who run here in American mosques by bringing in their 
money and say, ``You can have our money, but you have to take 
our Wahhabi imam to go with it,'' and where you can come right 
out here to Route 7 and buy books in the Islamic center that 
talk about how you can properly beat your wife, and you can buy 
these things on Amazon, well, you know, if the Saudis can do 
all of that kind of stuff, maybe with a little diplomatic 
reciprocity we ought to be able to build--you know, any 
religious group in the United States ought to be able to go 
build its church or synagogue or temple somewhere in Saudi 
Arabia.
    I believe that diplomatic reciprocity is something that 
should be part of this.
    Mr. Suozzi. Thank you.
    Mr. Donovan. Thank you, Mr. Suozzi.
    Thank you, witnesses.
    I am going to reserve my time in case there is no time at 
the end and recognize Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much.
    And let me just note that Mr. Lenczowski is one of the 
heroes of the Cold War and heroes of ending the conflict with 
Soviet Communism in a way that didn't cost millions of lives. 
So this is a man who we owe a great deal of gratitude for.
    And I might add that, during his time at the White House, 
when I worked with him in the White House, he was under vicious 
attack by numbers of people who supposedly believed in freedom. 
And this is the man who saved us.
    That same is true, Mr. Hicks, when we talk about el-Sisi. 
El-Sisi saved Egypt, and his coalition saved it from becoming a 
dictatorship based on Islam. And the fact is, yeah, he has 
some--the el-Sisi regime is not a perfect regime, and that is 
for sure. It has its faults. We have our faults, as well.
    But, like during the Cold War, there were people who only 
could criticize those governments that were standing up against 
the onslaught of Marxist-Leninism. And, as Mr. Lenczowski was 
trying to point out, Marxism-Leninism was to, for example, 
socialism what radical Islamic terrorist groups now are to 
moderate Muslims.
    And we didn't attack socialist regimes during that time 
period. In fact, I remember some things we were working with 
some socialist regimes, at that time. We need to work with 
moderate Muslim groups and not try to nitpick them to make them 
weak so they can fall to radical Islamic regimes. And that is 
as simple as that.
    So, with that said, I would like Mr. Hicks to have his 
chance to refute what I just said.
    So go right ahead.
    Mr. Hicks. Thank you, Mr. Rohrabacher. Yes, I think I do 
strongly disagree with what you just said about President Sisi 
and his role in Egypt.
    I have been professionally involved with human rights 
conditions in Egypt for over 30 years, and I can definitely say 
that the human rights conditions today are far worse than 
anything I have seen over that whole 30-year period. What we 
have now is possibly comparable to the Nasserite period, but I 
am too young to remember that directly.
    Nor do I think it is working. And I don't think it is 
nitpicking to point to the thousands of people who have died in 
political violence, many of them at the hands of the Egyptian 
security forces, and call that nitpicking. That is not 
nitpicking. That is a huge escalation in the level of violence 
in Egypt.
    Mr. Rohrabacher. Now, as long as you have, at the same 
time, been--see, here you are testifying today focusing on 
that, as compared to all these other regimes that are 
monstrously worse than what you are talking about.
    And that is why I refer to Mr. Lenczowski's comparison to 
the Cold War, to Marxist-Leninism, and that battle that we had. 
There are people who, during the Cold War, spent all of their 
time complaining about governments that were on the front edge. 
And because they were right on the battle line against 
communism, yeah, things get--you can't be a perfect, idealist 
libertarian when you are confronted with that type of a 
challenge.
    Mr. Hicks. Where are we headed----
    Mr. Rohrabacher. We are faced with that kind of challenge 
today----
    Mr. Hicks. Where we are headed----
    Mr. Rohrabacher [continuing]. In the world.
    And one last point, because I know I only have a couple 
minutes, and that is, how do we make sure that Muslims 
throughout the world understand that we are on their side and 
that this 10 percent of Islam that has decided that they are 
going to superimpose their radical beliefs on everyone else by 
terrorizing the world into submission--because that is what 
this is about. How do we make sure the other Muslims know we 
are all human beings and we should work together against 
whether it is Marxist-Leninist tyranny or Islamic radical 
tyranny or whatever their kind of tyranny.
    We need to make sure in countries where the oppression of 
Muslims is clear, like with the Rohingyas--which we passed a 
resolution yesterday about what is going on in Burma, where the 
Muslim population is under severe attack and being brutally 
murdered. Yeah, we spoke out yesterday, and I am proud to have 
been part of that.
    I was also proud that, when the Kosovos were denied their 
right of self-determination and they were being brutally, 
again, suppressed and slaughtered by Christian Serbs, we stood 
up for the right of self-determination of the people of Kosovo, 
even though they were overwhelmingly Muslim.
    So, with that, that is the type of thing, we have to send 
that message, that we are a principled country here, and that 
is how we do that.
    I will leave that and--Mr. Lenczowski, I have mentioned you 
several times. Would you like to add anything to that, as you 
added to my efforts when I was writing President Reagan's 
speeches?
    Mr. Lenczowski. Congressman, you are very generous, and I 
can only say that I don't deserve those kind of encomiums, but 
I was very honored to be one of the cooks in the kitchen in the 
Reagan White House. And it was a great pleasure and an honor to 
work with you, because you and your colleagues in the 
speechwriting shop were some of the greatest articulators of 
the philosophy that the President represented and wanted to 
bring to the world. I don't want to be patronizing, but I could 
return the compliment to you in a similar way. So thank you.
    I just would like to say, when one is at war with major 
totalitarian movements, sometimes you have to you make 
alliances. When we were at war with Hitler, we allied ourselves 
with Stalin, who, in some respects, may have been even a 
greater monster than Hitler in terms of the death toll that he 
inflicted upon humanity and the genocide of tribes and little 
nations within the Soviet Union.
    Sometimes you have to choose the lesser of evils. Indeed, 
as you suggested, we had to ally ourselves with some countries 
like Iran. During the Carter administration, human rights 
activists were attacking the Shah's Iran relentlessly because 
he had a terrible secret police and because he was an 
authoritarian ruler and all of this kind of stuff. The Shah was 
the most liberal of all of the realistic political alternatives 
in Iran at that time.
    The Soviet Union was hugely active in penetrating Iran and 
controlling and financing the Tudeh Party, which was their 
Communist Party. There were two major attempts to take over 
Iran: In 1921, when they tried to set up the Republic of Gilan 
in northern Iran; and in 1945-1946, when they tried to set up 
the independent Republic of Azerbaijan in northern Iran as 
instruments to take over that country.
    And so we undermined the Shah. We helped delegitimize him. 
We pulled the rug out from him because he wasn't perfect. And 
then what did we get? We got radical Shiite, revolutionary, 
quasi-totalitarian Islamism in Iran.
    And so I appreciate the problem of human rights violations 
in authoritarian countries, and I appreciate the problems that 
Mr. Hicks has raised about Egypt. I don't know enough about 
Egypt to comment on this. But I believe that the greater evil 
here, rather than traditional authoritarianism, is a 
totalitarian movement that is metastasizing around the world.
    Mr. Rohrabacher. Thank you.
    Thank you, Mr. Chairman.
    Mr. Donovan. The Chair now recognizes Mr. Garrett.
    Mr. Garrett. I am curious when you came up here and looked 
at my notes, because you provided a very good segue. I am going 
to take the form more of a soliloquy than a colloquy because of 
the time constraints and point out that the exchange between 
Congresswoman Bass and John was really informative, that I 
wrote this down at the time: Marxist-Leninism and radical Islam 
or radical, intolerant anything are similar because both are 
antithetical to the natural state of humanity, that the 
Lazarus----
    Mr. Lenczowski. The natural law.
    Mr. Garrett. I have very little time, with all due respect. 
And I have a great deal, based on what Mr. Rohrabacher said. 
Let me keep going.
    The line from the Lazarus poem referencing ``huddled masses 
yearning to breathe free'' comes to mind. If you tell someone 
what they cannot do, they will inherently wish to try to do 
that, because that is the natural state of man.
    And so I look to an illustrative piece of text from this 
country, and I will omit the first word and simply say: Shall 
not make laws respecting the establishment of religion nor 
prohibiting the free exercise thereof or abridging the freedom 
of speech or press or the right of people to peaceably assemble 
and petition the government for a redress of grievances. I 
submit that this should be our standard for the world.
    However, your statements as it regards to Iran, I think, 
are illustrative of the reality in which we in the West all too 
often oversimplify things by suggesting that perhaps it is 
either black or white. The deposition of the Shah was, in no 
arguable sense, a reaction to a lack of atrocities on the part 
of the secret police in Iran, but what it begat was bloodshed 
on a scale not seen in that region for years that began in 
1979, and then it punctuated with an exclamation point in 1988 
and then again during the Green Revolution just less than a 
decade ago.
    With that, I would ask that we enter into the record the 
cover, title page, and preface, which is a total of 7 pages, of 
``Iran: Where Mass Murderers Rule.''
    And I would point out also that I think that we 
oversimplify the issue of Islam. I will submit candidly that, 
despite my Christian faith, I am delighted to say that there 
are many Muslims who I count among my friends. Having said 
that, I will decry and condemn radical Islam vehemently and 
full-throatedly, as should everyone here, as they also should 
with any radical, intolerant practitioner of Christianity or 
Judaism or any other faith that seeks to impose upon others 
against their natural-law right to determine for themselves how 
they choose to worship or if they choose to worship. And that 
should be where the United States stands.
    While I take exception with Mr. Hicks' comments as it 
relates to some of the circumstances in Egypt, I would submit 
that, as it relates to Saudi Arabia, if we are to engage in 
arms deals amounting to trillions of dollars in trade, I don't 
think it is too much to ask that they stop publishing texts to 
the entire Islamic world, in their various languages, adhering 
to a strict Wahhabist standard.
    And I would also point out that the Sufis massacred in the 
hundreds not so long ago were, in fact, Muslims who believed 
that they should be able to be believe differently as Muslims, 
and they are just as dead as any Jew or Christian or atheist 
who ever died at the tip of a religious-motivated spear.
    So diversity is strength so long as that diversity is 
tolerant of diversity. And diversity that you can see how we 
worship, who we love, how we look is important. But the 
diversity that we can't see, that exists between our left and 
right ear, and a world where we make human rights paramount is 
equally, if not more so, important.
    So I just wish we had more time on this subject matter. I 
would call upon my colleagues to take a step back and 
understand that condemning radical Islam is not condemning 
Islam and that you should be equally willing to condemn radical 
practitioners of any faith, whether they are pushing the 
Rohingya from their ancestral lands; that the American role, in 
order to have credibility, is not to be the parent who tells 
their child not to drink while buying a bottle of liquor, but 
who says, we are tolerant of others here, it works well here--
and, Mr. Syeed, your comments have been very appreciated to 
that end--and it will work well for you too.
    I apologize for my soliloquy, understandably because of 
time. And I didn't mean to cut you off or be disrespectful, but 
this is what happens when you are the junior member.
    God bless. Thank you all.
    Mr. Donovan. And, without objection, your offering is 
entered into the record.
    I am going to take 1 minute because I waited for everybody 
else to ask a question.
    Many times, it is debated about the United States' role in 
foreign resources, giving moneys, resources, having people on 
the ground in places where it is very dangerous and 
experiencing some of the matters that we are speaking about 
today.
    Could each of you just give me, like, 30 seconds on what 
happens if the United States fails to have an influence in 
these countries or starts pulling back and who fills that void 
that might be created if the United States doesn't continue 
with its current activities in some of these countries where we 
are seeing this extreme behavior?
    Mr. Farr. I will just say that the United States is the 
country where religious freedom has reached its apogee. If it 
is lost in this country, where can it be regained? These are 
the stakes that we are talking about today.
    Mr. Donovan. John?
    Mr. Lenczowski. I can only see a worsening of the situation 
because I think that so many of the radical Islamist movements 
have an enormous amount of momentum on their side.
    One thing that concerns me a lot here is what is going on 
in Europe: The establishment of separatist enclaves, where 
sharia law is dominant, that have become de facto no-go zones 
for people to travel. You can buy an app now to put on your 
iPhone that tells you whether you are in a no-go zone in Paris 
or not.
    Are these enclaves within Europe going to try to be part of 
a system of religious pluralism, or are they going to try to 
set up systems that are in complete contravention with Western 
concepts of human rights?
    I am very concerned about this dimension. It is not simply 
a dimension of terrorism; it is--I call it in my written 
testimony ``resettlement jihad'' and ``sharia supremacism.''
    Mr. Donovan. Dr. Syeed?
    Mr. Syeed. Yeah, I have tried to make a point that the 
emergence of Muslim community in America, in this pluralist 
democracy, is an asset not only for America, not only for 
Muslims, for the whole world. So we are going to provide a 
model to Europe, and eventually we should be able to fight 
those evils which are bothering us in the rest of the world as 
well. So it is just a wonderful resource, and you need to 
recognize that--we need to recognize that.
    Mr. Donovan. Thank you, Doctor.
    Mr. Hicks?
    Mr. Hicks. I think we have a good example of what happens 
if the United States withdraws when we look at Syria. The 
powers that have moved into that vacant space have been 
authoritarian powers like Russia and sectarian powers like 
Iran, and that, of course, is terrible for human rights, it is 
terrible for religious freedom, and it is terrible for U.S. 
interests.
    Mr. Donovan. Thank you.
    I thank you all for your testimony. I thank you all for 
appearing here. I thank my colleagues for their pointed 
questions.
    The record will remain open for 10 days in case any member 
wants to submit a question that we would ask that you do then 
respond to in writing.
    This hearing is adjourned.
    [Whereupon, at 12:05 p.m., the subcommittee was adjourned.]

                                  
                                    

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
